              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Acquisition of Protective Force
Weapons by Sandia National
Laboratory, New Mexico




DOE/IG-0715                                 January 2006
ACQUISITION OF PROTECTIVE FORCE WEAPONS BY
SANDIA NATIONAL LABORATORY, NEW MEXICO

TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objectives    1

              Observations and Conclusions   1


              DETAILS OF FINDINGS

              Site Office Support            3

              Standard Firearms              3

              Buy American Policy            4

              Sole Source Procurement        5


              RECOMMENDATIONS                6


              MANAGEMENT COMMENTS            6


              INSPECTOR COMMENTS             7


              APPENDICES

              A. Scope and Methodology       8

              B. Management Comments         9
Overview

INTRODUCTION       Sandia National Laboratory, New Mexico (Sandia Laboratory), is a
AND OBJECTIVES     Department of Energy (DOE) research and development facility
                   operated by Sandia Corporation. Located on Kirtland Air Force
                   Base in Albuquerque, New Mexico, Sandia Laboratory applies
                   advanced science and engineering to help the U.S. and its allies
                   detect, repel, defeat, or mitigate national security threats.

                   In June 2004, Sandia Laboratory’s protective force used a sole
                   source procurement to order eight Milkor MGL Mk-1 6-shot
                   40mm grenade launchers, associated special tool kits, and initial
                   spares from Milkor USA, an exclusive vendor in the U.S. for this
                   grenade launcher. Subsequent revisions to the original order
                   brought the number of launchers to 20 and the total cost of the
                   procurement to $102,600. The launchers were intended to replace
                   the protective force’s existing M203 single-shot 40mm grenade
                   launchers. Milkor Marketing (Pty) Ltd., the manufacturer of the
                   new grenade launchers, is headquartered in Pretoria, Republic of
                   South Africa. In November 2004, U.S. Customs and Border
                   Protection (Customs) detained and eventually seized the 20 Milkor
                   grenade launchers, special tool kits, and initial spares at a port of
                   entry in Los Angeles, California, for violation of U.S. import
                   regulations.

                   The Office of Inspector General received an allegation that the
                   National Nuclear Security Administration’s (NNSA’s) Sandia Site
                   Office refused to use its authority to obtain release of the Milkor
                   grenade launchers from Customs. Therefore, we initiated an
                   inspection to review the facts and circumstances surrounding the
                   procurement of the grenade launchers.

OBSERVATIONS AND   We did not find evidence that the Sandia Site Office was
CONCLUSIONS        unresponsive to Sandia Laboratory in connection with its attempts
                   to obtain release of the Milkor grenade launchers from Customs’
                   seizure. However, we did find that Sandia Laboratory violated
                   Federal and DOE procurement and security policies in the
                   acquisition of the grenade launchers. Specifically, we found that:

                   •   The Milkor grenade launchers were not on DOE’s standardized
                       firearms list, and Sandia Laboratory’s protective force ordered
                       the grenade launchers without the required approval to deviate
                       from this list.




Page 1                                             Acquisition of Protective Force
                                                   Weapons by Sandia National
                                                   Laboratory, New Mexico
         •   Contrary to Federal and DOE “Buy American” policy, Sandia
             Laboratory’s protective force ordered the South African-made
             6-shot 40mm grenade launchers without attempting to
             determine whether an American-made product was available.
             Our preliminary research determined that there was at least one
             American-made 6-shot 40mm grenade launcher available.

         •   The purchase of the grenade launchers did not comply with
             Sandia Laboratory’s procurement policy pertaining to sole
             source procurements.

         We determined that Customs seized the grenade launchers because
         Sandia Corporation was not authorized to import the grenade
         launchers. Although Sandia Laboratory is a Government-
         owned/contractor-operated facility, Sandia Corporation could not
         legally purchase the South African grenade launchers without
         import exemptions through the Department of State or the
         Department of Defense. The failure to obtain the required import
         exemptions, as well as the violations of standardized firearms
         policy, “Buy American” policy, and sole source procurement
         policy, triggered a number of wasteful activities by Federal,
         contractor, and congressional staff, to include futile attempts to
         gain release of the weapons from Customs, and prevented the
         protective force from obtaining equipment in a timely manner that
         was reportedly needed to meet increased operational requirements.




Page 2                                  Observations and Conclusions
Details of Findings

SITE OFFICE           We did not find evidence that the Sandia Site Office was
SUPPORT               unresponsive to Sandia Laboratory in connection with its attempts
                      to obtain release of the Milkor grenade launchers from Customs’
                      seizure. We identified telephone conversations, letters, meetings,
                      electronic mail, and informal discussions showing that the Sandia
                      Site Office communicated with Customs officials, as well as U. S.
                      Department of Justice/Bureau of Alcohol, Tobacco, Firearms, and
                      Explosives officials, seeking to obtain release of the grenade
                      launchers. The Sandia Site Office explained to these officials that
                      the grenade launchers were purchased using appropriated funds,
                      that Sandia Laboratory was a Government-owned/contractor-
                      operated facility, and that Sandia Corporation would not be the
                      ultimate consignee for the grenade launchers, but to no avail.
                      Further, we interviewed the individual who raised the allegation to
                      the Office of Inspector General, and the individual no longer
                      believed that the Sandia Site Office had been unresponsive.

STANDARD              We found that the Milkor grenade launchers were not on DOE’s
FIREARMS              standardized firearms list, and Sandia Laboratory’s protective force
                      ordered the grenade launchers without the required approval to
                      deviate from this list. DOE Manual 473.2-2, PROTECTIVE
                      FORCE PROGRAM MANUAL, states that “standardization of
                      firearms is required to . . . enhance inter site assistance.” The
                      manual provides a list of standard firearms and states that
                      “Procurement of PF [protective force] firearms must involve” these
                      firearm systems. The list includes the M203 single-shot 40mm
                      grenade launcher that Sandia Laboratory already had; but it does
                      not include the Milkor MGL Mk-1 6-shot grenade launcher.

                      The manual also states that “Deviations from or additions to this
                      list must be approved by the Director, SO [Office of Security], or
                      the Director of Defense Nuclear Security, NNSA, as applicable.”
                      Further, DOE Order 473.2, PROTECTIVE FORCE PROGRAM,
                      states that “Deviations (i.e., variances, waivers, and exceptions)
                      from the requirements prescribed in this Order and DOE M 473.2-
                      2, PROTECTIVE FORCE PROGRAM MANUAL, must be
                      processed in accordance with DOE O 470.1, SAFEGUARDS AND
                      SECURITY PROGRAM.” DOE O 470.1 requires the submission
                      of a Deviation Request, which cites the directive being deviated
                      from, the impacted entity, the justification for the request, and a
                      description of the effectiveness of the alternative being proposed.

                      Sandia Laboratory did not obtain the required approval to deviate
                      from the standardized list. On February 27, 2004, the protective
                      force requested Sandia Site Office approval for the procurement of



Page 3                                                              Details of Findings
               the Milkor MGL Mk-1 grenade launchers. On June 2, 2004,
               Sandia Site Office approved this request. However, the approval
               of the Director of Defense Nuclear Security was not sought, and
               documentation required to support a deviation was never prepared.

BUY AMERICAN   We found that, contrary to Federal and DOE “Buy American”
POLICY         policy, Sandia Laboratory’s protective force ordered the South
               African-made 6-shot 40mm grenade launchers without attempting
               to determine whether an American-made product was available.

               The protective force supported its request to purchase the South
               African grenade launchers by citing increased requirements under
               DOE’s Design Basis Threat document and that Milkor’s 6-shot
               revolver type design allowed for high rates of fire and ranges
               beyond the reach of hand grenades. During our inspection, a
               Sandia Laboratory protective force manager told us that the South
               African grenade launcher was the only 6-shot grenade launcher in
               the world.

               Federal Acquisition Regulation, 48 Code of Federal Regulations
               (CFR), Subpart 25.1, “Buy American Act – Supplies,” Section
               25.102, “Policy,” implements the Buy American Act. It states that
               “Except as provided in 25.103, acquire only domestic end products
               for public use inside the United States.” Section 25.103 only
               allows the Contracting Officer to acquire a foreign end product
               without regard to the restrictions of the Buy American Act when
               the head of the agency makes a determination that domestic
               preference would be inconsistent with the public interest or when
               the contracting officer makes a determination that the product is
               not available or that the cost is unreasonable. DOE policy in
               48 CFR 925.102 further specifies: “. . . provided such
               determination is factually supported in writing.”

               We determined that Sandia Laboratory ordered the 20 South
               African-made grenade launchers without: (1) a written
               determination by a head of agency that the purchase was in the
               public interest; or (2) a determination by the contracting officer
               that the product was not available or that the cost was
               unreasonable. Further, while Sandia Laboratory had not attempted
               to identify whether a U.S. made 6-shot 40mm grenade launcher
               existed, our preliminary research determined that a 6-shot 40mm
               grenade launcher with a high rate of fire and an ability to handle
               ranges beyond the reach of hand grenades (which were the reasons
               cited by Sandia Laboratory for needing the Milkor 6-shot grenade
               launcher) was manufactured in the U.S. When we discussed this



Page 4                                                      Details of Findings
              weapon with Sandia Site Office and Sandia Laboratory personnel,
              they said they were previously unaware of the weapon’s existence.

SOLE SOURCE   We found that the purchase of the grenade launchers did not
PROCUREMENT   comply with Sandia Laboratory’s procurement policy pertaining to
              sole source procurements. According to Sandia Laboratory’s
              Guideline for Competitive Versus Noncompetitive Purchases, a
              sole source procurement must be justified and meet the “three part
              test” as required by DOE and NNSA. The three part test includes:
              (1) the source is the only known source; (2) the source is able to
              fully meet Sandia Laboratory’s actual needs; and (3) reasonable
              attempts to locate or develop other sources have been unsuccessful
              or are not feasible.

              We determined that the protective force submitted a SOLE-
              SOURCE/SOLE-MAKE JUSTIFICATION FOR PRODUCT(S)
              AND SERVICE(S) containing a statement that “There is only one
              supplier that makes multi shot” grenade launchers. However, we
              determined that no attempts were made by Sandia Laboratory to
              locate or develop other sources for the grenade launchers. As
              previously stated, the Office of Inspector General was able to
              locate a domestic manufacturer of a 6-shot 40mm grenade
              launcher.

              The request for approval to purchase the 20 grenade launchers also
              stated that “Our request is driven by a preliminary training needs
              analysis …” and Sandia Laboratory “has modeled the
              characteristics of the weapon.” However, we determined that the
              protective force did not conduct a preliminary training needs
              analysis and did not actually model the characteristics of the
              Milkor grenade launcher. Further, a Sandia Laboratory protective
              force official acknowledged that both statements in the request
              were “mischaracterizations” of the facts surrounding the basis for
              ordering the Milkor Mk-1 grenade launchers. We were told that
              the statements in the justification were actually meant to reference
              discussions by a group of “experts” sometime in 2003, but no
              formal analysis of training needs was conducted and no formal
              modeling took place.




Page 5                                                      Details of Findings
RECOMMENDATIONS   We recommend the Manager, Sandia Site Office, ensures that, for
                  future procurements, Sandia Laboratory complies with:

                  1. The standardized firearms list or obtains the appropriate
                     approvals for any deviations from it.

                  2. The requirements of the Buy American Act.

                  3. All sole source procurement requirements, including those in
                     Sandia Laboratory’s Guideline for Competitive Versus
                     Noncompetitive Purchases.

MANAGEMENT        In comments on a draft of this report management agreed with
COMMENTS          the report recommendations. Regarding recommendation 1,
                  management indicated that a deviation request has now been
                  approved. With regard to recommendation 2, management stated
                  that the Sandia Site Office Contracting Officer will direct Sandia
                  Laboratory to (1) review its guidelines to ensure consistency with
                  application to commercial items and use of Buy American Act
                  exemptions; (2) review the terms and conditions boilerplates for
                  correctness and consistency; and, (3) provide training to Sandia
                  Contracting Representatives to ensure complete understanding of
                  the correct use of each contract type boilerplate. Regarding
                  recommendation 3, management stated that the Sandia Site Office
                  will require Sandia Laboratory to (1) provide refresher training to
                  its procurement staff to ensure full compliance is achieved for any
                  future sole source documentation; and, (2) revise its guideline to
                  address how Sandia Laboratory’s Contracting Representatives
                  should handle sole source actions that are revised to include
                  additional quantities or new supplies or services.

                  In its comments, management also stated that after we brought the
                  American-made grenade launcher to its attention, the Sandia Site
                  Office contacted the vendor of the weapon for additional
                  information. Management stated that a report supplied by the
                  vendor did not contain any information to support that a 40mm
                  grenade launcher capable of safely handling high explosive
                  munitions was available through this company and that the ability
                  to be able to safely fire high explosive munitions “is the attribute
                  that sets the South African made Milkor weapon [apart] from the
                  others.”

                  Management’s comments are included in their entirety in
                  Appendix B.



Page 6                                                  Recommendations
                                                        Management Comments
INSPECTOR   We found management’s comments on the report recommendations
COMMENTS    to be responsive. With regard to management’s comment about
            the ability of the 40mm grenade launchers to handle high explosive
            munitions, we note that none of the documentation we reviewed or
            the people we interviewed during our inspection indicated that this
            was a factor in the weapon procurement. However, when we
            followed up with the manufacturer of the American-made 40mm
            grenade launcher, as well as its distributor, we were told that the
            weapon has always been rated for high explosive grenades and that
            this capability was recently demonstrated to the U.S. Marine
            Corps. Regardless, what is most important is that Sandia
            Laboratory did not attempt to determine whether an American-
            made product was available prior to procuring a non-American
            product.




Page 7                                                 Inspector Comments
Appendix A

SCOPE AND     We performed the majority of the fieldwork for this inspection
METHODOLOGY   between December 2004 and May 2005. We reviewed pertinent
              portions of the CFR and DOE orders and manuals pertaining to
              import policy, acquisitions, and protective force programs to
              determine what criteria applied to procurement policy,
              procurement programs, import of weapons into the U.S., and
              deviations from DOE standardized firearms lists.

              We interviewed safeguards and security personnel, Sandia
              Laboratory protective force officials and procurement employees,
              Customs employees, and other persons familiar with acquiring
              South African-made grenade launchers for domestic use. We also
              reviewed the following documentation:

                 •   DOE Manual 473.1-1, PHYSICAL PROTECTION
                     PROGRAM MANUAL.
                 •   DOE Order 473.1, PHYSICAL PROTECTION
                     PROGRAM.
                 •   Federal Acquisition Policy for Supplies, 48 CFR 25.102.
                 •   Sandia National Laboratories Publication 1.3.G,
                     GUIDELINE FOR COMPETITIVE VERSUS
                     NONCOMPETITIVE PURCHASES.
                 •   DOE Order 473.2, PROTECTIVE FORCE PROGRAM.
                 •   DOE Manual 473.2-2, PROTECTIVE FORCE PROGRAM
                     MANUAL.
                 •   DOE Order 470.1, SAFEGUARDS AND SECURITY
                     PROGRAM.
                 •   Procurement, shipping, air waybills, emails, and other
                     documentation related to Sandia Laboratory’s purchase of
                     the 20 Milkor MGL Mk-1 6-shot grenade launchers seized
                     in November 2004 by Customs.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 8                                              Scope and Methodology
Appendix B




Page 9       Management Comments
Appendix B (continued)




Page 10                  Management Comments
Appendix B (continued)




Page 11                  Management Comments
Appendix B (continued)




Page 12                  Management Comments
                                                                    IG Report No. DOE/IG-0715

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
